Report No. D-2008-001          October 11, 2007




  Government Purchase Card Controls at DoD
              Schools in Korea
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
APC                   Agency Program Coordinator
DDESS                 Domestic Dependent Elementary and Secondary Schools
DMD                   Data Mining Division
DoDDS                 Department of Defense Dependents School
DoDEA                 Department of Defense Education Activity
DSO                   District Superintendent’s Office
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
GPC                   Government Purchase Card
                              INSPECTOR GENERAL
 

                             DEPARTMENT OF DEFENSE
 

                              400 ARMY NAVY DRIVE
 

                         ARLINGTON, VIRGINIA 22202-4704
 





                                                                          October 11, 2007

MEMORANDUM FOR DIRECTOR, DOD EDUCATION ACTIVITY


SUBJECT: Report on Government Purchase Card Controls at DoD Schools in Korea
         (Report No. D-2008-001)


      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report .

        Comments on the draft of this report were partially responsive; however, DoD
Directive 7650.3 requires all issues be resolved quickly. The Director, DoD Education
Activity, concurred with the report in general, but did not concur with the basis and
rationale for the recommendation. The Director stated the DoD Education Activity would
contact the DoD Government Purchase Card Program Management Office to discuss
purpose and justification documentation for each purchase, but did not indicate a date for
responding on the results of the discussion. We request the Director, DoD Education
Activity, provide comments to this final report on the results of the meeting and any
additional planned actions by November 13, 2007.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to audcolu@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

         We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. James L. Kornides at (614) 751-1400, ext. 211 or Mr. John K. Issel at (614)
751-1400, ext. 212. See Appendix B for the report distribution. The team members are
listed inside the back cover.


                                         pJJ/-~
                                         Paul  J~~:tto,   CPA
                                Assistant Inspector General and Director
                                  Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-001                                                   October 11, 2007
   (Project No. D2007-D000FJ-0038.002)

          Government Purchase Card Controls at DoD Schools in 

                               Korea 


                                  Executive Summary 


Who Should Read This Report and Why? DoD Education Activity managers,
purchase cardholders, and approving officials should read this report because it discusses
the administration and management controls for the Korea District Government Purchase
Card Program.

Background. The DoD Office of Inspector General is required by section 2784, title 10,
United States Code, to perform periodic audits to identify potentially fraudulent,
improper, and abusive uses of purchase cards; any patterns of improper card holder
transactions; and categories of purchases that should be made by means other than
purchase cards.

The DoD Education Activity-Pacific Area Purchase Card Program includes a
headquarters office in Okinawa and school districts in Korea, Okinawa, Japan, and
Guam. This report includes our review of the Korea District. Korea District cardholders
incurred about 1,500 transactions worth over $1.3 million in charges against their
purchase cards for the period of review. A Government purchase card can be used as a
method of procurement or a method of payment.

Results. For the 100 judgmentally sampled Government purchase card transactions we
reviewed, controls over the use of the Government purchase card by DoD schools in the
Korea District were generally effective. Our judgment sample of 100 Government
purchase card transactions, valued at $393,282.43, showed the Government purchase
card had been used to make appropriate purchases. However, the purchase card
documentation on file did not contain all of the required information related to the
purchases. Specifically, the documents we examined did not contain written evidence of
the Government need for the purchases as required by the Federal Acquisition
Regulation.

Our review of the Purchase Card Program related to the 100 transactions did not identify
any material management control weaknesses. See the Background section of the report
for the discussion of the review of internal controls.

Management Comments and Audit Response. The Director, DoD Education Activity,
concurred with the report in general; however, the Director did not concur with the basis
and rationale for the report recommendation to document the need for purchases. Prior to
accepting the recommendation, the Director planned to contact the DoD Government
Purchase Card Program Management Office to discuss purpose and justification
documentation for each purchase. We continue to believe our recommendation is valid,
but accept the Director’s plan to discuss the issue with the Purchase Card Program
Management Office and request that the Director, DoD Education Activity, provide
comment on this report on the results of the meeting and any additional planned actions
by November 13, 2007. A discussion of the management comments is in the Finding
section of the report and the complete text of the comments is in the Management
Comments section.




                                           ii
Table of Contents 


Executive Summary                                              i


Background                                                     1


Objectives                                                     2


Review of Internal Controls                                    2


Finding 

      Documentation on the Use of the Government Purchase 

          Card–Korea District                                  3


Appendixes                                                      

      A. Scope and Methodology 	                               9

          Prior Coverage                                      10 

      B. Report Distribution 	                                11 


Management Comments
      Department of Defense Education Activity 	              12 

Background
    The DoD Office of Inspector General is required by section 2784, title 10, United
    States Code, to perform periodic audits of the DoD Purchase Card Program to
    identify:

       •	 potentially fraudulent, improper, and abusive uses of purchase cards;

       •	 any patterns of improper card holder transactions, such as purchases of
          prohibited items; and

       •	 categories of purchases that should be made by means other than purchase
          cards in order to better aggregate purchases and obtain lower prices.

    Use of the Government Purchase Card. The Government purchase card is the
    preferred method to purchase and to pay for micro-purchases according to the
    Federal Acquisition Regulation (FAR) 13.2, “Actions At or Below the
    Micro-Purchase Threshold.” Use of the purchase card as a procurement and
    payment tool for micro-purchases is also defined in FAR 13.301,
    “Government-wide Commercial Purchase Card.” A micro-purchase is defined as
    an acquisition of supplies or services in which the aggregate amount does not
    exceed $3,000 except, in the case of construction, the limit is $2,000. For
    purchases made outside the United States, the threshold is $25,000. Additionally,
    the purchase card may be used as an ordering and payment mechanism for orders
    above the micro-purchase threshold. When used as an ordering and payment
    mechanism, contractors may bill against the card. When the order is delivered,
    the contractor bills the purchase card account instead of issuing an invoice
    directly to the agency.

    DoD Education Activity. The DoD Education Activity (DoDEA) is a field
    activity under the Under Secretary of Defense for Personnel and Readiness.
    DoDEA operates schools throughout the world and provides education for
    students from preschool through grade 12. Its schools are open to eligible
    dependents of Armed Forces members and Federal Government civilians.

    DoDEA operates two parallel schools systems: the DoD Dependents Schools
    (DoDDS) and the DoD Domestic Dependent Elementary and Secondary Schools
    (DDESS). For administrative purposes, the DoDEA is divided into three areas:
    DoDDS-Pacific, DoDDS-Europe, and DDESS. Within each area are a varying
    number of school districts.

    DoDDS-Pacific and DDESS-Guam. The Pacific Area includes three overseas
    school districts (Korea, Japan, and Okinawa) and a domestic school district
    (Guam). The Pacific Area headquarters is located at Torii Station, Okinawa,
    Japan. The Korea District headquarters is on Yongsan Garrison Army Post,
    Seoul, Korea. The Pacific Area is headed by a director and each school district is
    headed by a school superintendent. The Korea District Superintendent’s Office




                                         1

     has two primary Government purchase card cardholders and each Korea school
     has one cardholder. The approving official for the Korea District is the District
     chief of staff and the approving official for each school is either the principal or
     an assistant principal.


Objectives
     Our audit objective was to assess whether the DoD Education Activity–Pacific
     use of the Government purchase cards was in compliance with applicable laws
     and regulations. We also reviewed management controls over use of the purchase
     card. This report addresses the Korea District portion of the Pacific Area audit.
     See Appendix A for a discussion of the scope and methodology and Appendix B
     for discussion of prior audit coverage related to the objectives.


Review of Internal Controls
     We conducted our audit in accordance with the criteria contained in the
     Government Accountability Office (GAO) Purchase Card Audit Guide,
     GAO-04-87G, November 2003. For the Korea District Government Purchase
     Card Program, we tested the key elements of the control environment outlined in
     the GAO Purchase Card Audit Guide for internal control testing. Our review of
     the program as related to 100 judgmentally selected purchase card transactions
     disclosed no material internal control weaknesses.




                                           2

           Documentation on the Use of the
           Government Purchase Card-Korea
           District
           For the 100 judgmentally sampled Government purchase card transactions
           we reviewed, controls over the use of the Government purchase card by
           DoD schools in the Korea District were generally effective. Our
           judgmental sample of 100 Government purchase card transactions, valued
           at $393,282.43 showed the Government purchase card had been used to
           make appropriate purchases. However, the purchase card documentation
           on file did not contain all of the required information related to the
           purchases. DoDEA guidance on the use of the Government purchase card
           did not require the documentation of a Government need in the purchase
           file. Specifically, the documents we examined did not contain written
           evidence of the Government need for the purchases as required by the
           Federal Acquisition Regulation. Without the written documentation, there
           is no assurance that the acquisition was adequately studied to determine
           whether it meets a legitimate Government need.


Control Environment
    Cardholders and Approving Officials. The Korea District Superintendent’s
    Office (DSO) and three schools are physically located on Yongsan Garrison
    Army Post and five schools are physically located on other DoD military bases in
    Korea. The DSO had two cardholders and one approving official, the chief of
    staff, all of whom were physically located at the DSO. The cardholders and
    approving officials for each school were physically located at the schools, and the
    approving officials were either the principal or assistant principal of that school.

    Tests of the Internal Control Environment. In performing our review of the
    internal control environment for the Korea District, we tested these key elements:
    span of control, training, purchasing and reviewing authorities, and separation of
    duties.

            Span of Control. The DoD Government Charge Guidebook requires that
    not more than seven cardholders exist for each approving official. The Korea
    District span of control was appropriate. In each school, the cardholder was the
    supply technician and the approving official was either the principal or an
    assistant principal. The DSO had two cardholders and the approving official was
    the District chief of staff.

            Training. According to the DoD Government Charge Guidebook, the
    Agency Program Coordinator (APC) is responsible for establishing, maintaining,
    and monitoring purchase card training. The DoDEA, “Government Purchase
    Card Training Guide,” August 2005, requires three mandatory training courses for
    participants in its Government Purchase Card Program. The three courses were


                                         3

     the “Government Purchase Card Tutorial,” “Section 508 Training,” and DoDEA
     unique training for Agency Program Coordinators (APC).

     The APC for the Korea District was located at the Pacific Area headquarters. The
     APC monitored the provision of refresher and annual training courses to purchase
     card officials. We reviewed the cardholder training documentation for 9 of the 10
     Korea District cardholders who were identified for the 100 purchases we selected.
     One cardholder had retired prior to our review. The training files for that
     individual were archived in the Pacific Area headquarters. Documentation
     showed that the nine Korea District cardholders were current in their training
     requirements.

             Purchasing and Reviewing Authorities. The DoD Government Charge
     Guidebook considers support from the highest management levels to be a strong
     management control. The approving official for the DSO was the chief of staff.
     The approving official at the Korea District schools was either the principal or the
     assistant principal of the school. The chief of staff is a higher level manager in
     the District and principals are the highest management officials within the
     schools. The evidence of high level management involvement showed the
     Government Purchase Card Program was appropriately supported through the
     Korea District. Further, the Pacific Area had appointed an APC, who performed
     periodic audits of the Korea District cardholders’ accounts.

             Separation of duties. Maintaining the proper separation of duties is a
     mandatory management control. The DoD Government Charge Guidebook states
     that key duties such as making purchases, authorizing payments, certifying
     funding, and reviewing and auditing functions will be assigned to different
     individuals to minimize the risk of loss to the Government to the greatest extent
     possible. At the DSO and the eight Korea District schools, the cardholders were
     often the requestors for purchases. Under the personnel structure for the school
     system, the schools’ purchase cardholders were also the supply technicians.
     However, these occurrences were not unexpected. In 100 transactions tested, the
     DSO or the schools’ principals or assistant principals approved the purchases,
     certified the funding availability, and approved the cardholders’ account
     payments or were involved in dispute resolution. In addition, the Pacific Area
     APC performed periodic audits of the cardholders’ accounts.


Acquisition Attributes
     We also tested for compliance with five acquisition criteria contained in the GAO
     Purchase Card Audit Guide, GAO-04-87G, November 2003. For the 100 Korea
     District purchase card transactions we judgmentally selected for review, we
     determined whether the transactions were based on five attributes outlined in the
     GAO guide. The acquisitions:

        •   were for legitimate Government needs,

        •   had independent receipt and acceptance,

        •   had established physical control and accountability over acquired assets,


                                          4

       •	 had the billings and purchase logs reconciled by the cardholder, and

       •	 had been reviewed by approving officials.


Purchase Card Transaction Results
    Determination of a Legitimate Government Purchase. Acquisitions using the
    Government purchase card must meet the test that the goods or services obtained
    are to fulfill a Government need. Section 1301(a), title 31, United States Code,
    provides the general guidance: “Appropriations shall be applied only to the
    objects for which the appropriations were made except as otherwise provided by
    law.”
            Acquisition Documentation. FAR Subpart 4.8, “Government Contract
    Files,” prescribes requirements for establishing, maintaining, and disposing of
    contract files. The documentation in the files must be sufficient to constitute a
    complete history of the acquisition transaction for the purposes of:

       •	 providing a complete background as a basis for informed decisions at each
          step in the acquisition process,

       •	 supporting actions taken,

       •	 providing information for reviews and investigations, and

       •	 furnishing essential facts in the event of litigation or congressional
          inquiries.

    The records for an acquisition should support that the acquisition met a legitimate
    Government need.


            Test for Legitimate Need. The 100 judgmentally selected transactions
    reviewed included 20 transactions by the DSO and 10 transactions at each of
    eight different District schools. The transactions were selected from data
    originating from the bank’s records. Of the 100 transactions reviewed, 98 were
    initiated by Korea District cardholders.
    We determined whether each of the 100 selected transactions was a legitimate
    Government purchase by reviewing either the DoDEA Form 8052, “Request for
    Approval Prior to Government Purchase Card Purchase” or the “DoDDS Pacific
    GPC [Government Purchase Card] Pre-Approval Purchase Form,” as appropriate
    from the files; reviewing other documentation in the purchase files; and
    interviewing district personnel. For 77 purchases, the cardholders used a DoDEA
    Form 8052, which was an exact copy of the Users Manual prescribed GPC
    Form 3. For the other 21 purchases, the cardholders used an older form called the
    “DoDDS Pacific GPC Pre-Approval Purchase Form,” dated December 2004.
    For 98 transactions we reviewed, the Korea District cardholders used either one
    of two forms to document the approval and acquisition process. Two transactions
    did not have these forms because the transactions were not initiated by District
                                         5

personnel. For one transaction in our sample, a DoD school in Korea was billed
for items they did not purchase. The DSO notified the bank and the charges were
removed. For another transaction, a charge was processed twice, then one of the
charges was credited to the account.
None of the 98 transactions’ DoDEA Forms 8052 or DoDDS Pacific GPC
Pre-Approval Purchase Forms contained a justification or purpose for the
acquisition. No space on either form was allotted to record the reason for the
purchase. No other documentation was included in the files to record a
justification for the acquisitions. DoDEA Regulation 8000.1 and the DoDEA
Government Purchase Card Users Manual had not provided guidance to
document the justification for a purchase. In accordance with FAR Subpart 4.8,
acquisition documentation should fully support the acquisition including that the
purchase meets a legitimate Government need.
Korea District cardholders were required to obtain approval from the approving
official before making a credit card purchase. In each of the 98 cases, the
purchases were appropriately approved by either the chief of staff for DSO
transactions or the principals or assistant principals for the schools’ transactions.
When we questioned the basis of the purchases, district officials were able to
provide rationale for each of the purchases. For example, the Seoul American
Elementary School purchased two cordless telephones. No documentation in the
file explained the need for these telephones. The purchase cardholder explained
that the two telephones replaced the principal’s broken telephone and improved
the principal’s and assistant principal’s mobility in the school. The phones
permitted the principals to travel throughout the school and still be in telephone
contact. The FAR prescribes that the documentation in the files should be
sufficient to constitute a complete history of the acquisition and provide support
for the actions taken. An acquisition by DoDEA activities must meet a legitimate
Government need. Therefore, the acquisition files should support that the
transaction does meet a legitimate Government need.


Independent Receipt and Acceptance. Because of the limited personnel
structure of the District’s schools, the purchase cardholders were often the
requesters and receivers of the goods and services acquired. For 43 of the
100 transactions reviewed, the cardholders were also the receivers of the goods
and services. The District had alternate internal controls, such as higher level
approvals and periodic Pacific Area APC reviews. In the 100 acquisitions tested,
we did not observe that the arrangement was an unreasonable risk with the
controls in place.


Physical Control and Accountability Over Pilferable and Other Vulnerable
Property. At five schools, we tested and verified the existence of at least one
item acquired from the 100 transactions reviewed. The items we tested we
considered pilferable or convertible to personal use. We were able to physically
verify the tested pilferable property at each of the five schools. We noted that
while Korea District did not have a formal system to track its minor, pilferable, or
sensitive property, District personnel were aware of the need for such a system
and were developing a system using an electronic spreadsheet. The system was
based upon submission of data to the DSO. We did not perform tests of this
developmental system.


                                      6

   Cardholder Reconciliation. Cardholders are required to reconcile and approve
   their monthly statements. The DoDEA Government Purchase Card Users Manual
   requires cardholders to record on a monthly log the acquisitions using the
   purchase card. The purchase card agent, U.S. Bank, provides monthly statements
   to cardholders and to billing and approving officials. The cardholders and billing
   and approving officials are to compare the purchase records to the monthly
   statement and pursue any discrepancies. After the statements are reviewed and
   approved, the statements are processed for payment of the bill. The monthly
   statements for the 100 transactions reviewed were appropriately reconciled and
   approved. This included the one transaction in our sample of 100 that was a
   charge by an unknown unauthorized party. The cardholder and approving official
   observed the charge, contested it, and U.S. Bank reversed the charge.

   Approving Official Review. Approving officials are required to pre-approve
   purchase card transactions. Approving officials are also required to review and
   sign the monthly statements. We did not find any exceptions to these
   requirements for the 100 transactions that we reviewed. All 98 uses of the
   purchase card were approved by an appropriate authority and the applicable
   monthly statements related to the 100 transactions reviewed were signed by the
   approving officials.

   DoD Education Activity Guidance. The DoDEA had issued guidance on the
   use of the Government-wide purchase card. The overall guidance was DoDEA
   Regulation 8000.1, “Use of the Government-wide Commercial Purchase Card,”
   February 18, 2005. DoDEA also published the “Government Purchase Card
   Users Manual,” August 15, 2005. These guides provided information and
   instructions to DoDEA personnel on the Purchase Card Program and the use of
   the purchase card. DoDEA Regulation 8000.1 provided overall guidance on the
   Purchase Card Program. The Users Manual provided more specific instructions
   on what the card could be used for and how to document the use of the card. The
   guides did not require documenting the Government need and justification for the
   purchase.



Summary
   The Korea District uses of the purchase card were appropriate and, in general, the
   controls over the use of the card were adequate for the transactions in our
   judgment sample. However, a key attribute for an acquisition was not
   documented: legitimate Government need.




                                       7

Recommendation, Management Comments, and Audit
  Response
    The Director, DoD Education Activity, needs to amend DoD Education
    Activity Directive 8000.1 and the DoD Education Activity’s “Government
    Purchase Card Users Manual” to require documenting that an acquisition
    meets a legitimate Government need by including a purpose and justification
    in the purchase card files.

    Management Comments. The Director, DoD Education Activity, concurred
    with the report in general; however, the Director did not concur with the basis and
    rationale for the recommendation. The Director referenced five criteria to support
    his response that it is not a requirement for him to document purchase card files
    with a purpose and justification. The Director stated that the DoD Education
    Activity Government Purchase Card Program was in compliance with DoD
    procedures. The Director stated that, in an effort to further address the
    recommendation, the Education Activity would contact the Department of
    Defense Government Purchase Card Program Management Office to discuss
    purpose and justification documentation for each purchase.

    Audit Response. The comments from the Director, DoD Education Activity,
    were partially responsive. The referenced criteria that the Director cited are silent
    as to documenting legitimate Government need when making procurements.
    However, Federal Acquisition Regulation Subpart 4.8 prescribes that acquisition
    files provide a complete background as a basis for informed decisions in the
    acquisition process and to support the actions taken. An activity’s decision that
    an acquisition meets a legitimate Government need is part of the decision-making
    process and documenting the process will support more adequately the actions
    taken. Recording the basis for an acquisition on the DoD Education Activity
    purchase request form would enhance management controls by decreasing
    reliance on verbal evidence. Implementing the recommendation would enhance
    the DoD Education Activity’s controls with little additional effort. We agree with
    the Director’s plan to discuss the issue with the Purchase Card Program
    Management Office and request the Director, DoD Education Activity, provide
    comments to this final report on the results of the meeting and any additional
    planned actions.




                                          8

Appendix A. Scope and Methodology 

   We conducted this performance audit from March 2007 through July 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   The audit assessed whether the DoD Education Activity’s Department of Defense
   Dependent Schools–Pacific, Korea District, use of the Government-wide purchase
   card was in compliance with applicable laws and regulations. We also reviewed
   the management control program over the use of the purchase card.

   We judgmentally selected 100 purchase card transactions, valued at $393,282.43,
   recorded by the Defense Data Manpower Center as made by cardholders in the
   Korea District. The transactions we selected covered the period September 1,
   2005, through August 30, 2006. During this period, the Korea District had a total
   of 1,511 purchase card transactions, valued at $1.33 million. The 100
   transactions included 20 transactions from the Korea District Headquarters and
   10 transactions each from eight different Korea schools. Because we used
   judgmental sampling techniques to select the transactions for our review, we have
   not made statistical projections.

   To perform this audit, we examined documents at the Korea District headquarters
   on Yongsan Garrison Army Post. The documents examined included purchase
   card requests, vendor invoices or receipts, purchase card logs, receiving reports,
   U.S. Bank purchase card monthly statements, training documents, and other
   documents as needed for each of our sample items. Additionally, we visited five
   schools in our sample to verify the existence of property purchased and
   interviewed cardholders and approving officials as needed.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of the U.S. Bank system that processes purchase card
   transactions and cardholder and approving official data, and we did not evaluate
   the general and application controls of Defense Data Manpower Center. The Data
   Manpower Center obtains purchase card information from U.S. Bank and
   provides it to the DoD IG Data Mining Division (DMD). The DoD IG DMD then
   provided the data to us. We determined data reliability by comparing the data
   provided to us to source documents. Source documents included invoices from
   vendors and U.S. Bank-provided monthly statements. Not evaluating the controls
   did not affect the results of the audit.

   Use of Technical Assistance. DMD assisted with the audit. DMD provided us
   the DoDEA-Pacific purchase card transactions and lists of cardholders and
   approving officials. DMD also identified potentially questionable transactions
   that we considered in developing our sample.


                                        9

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Financial Management high-risk area.


Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO) and the
    Department of Defense Inspector General (DoD IG) have issued numerous
    reports discussing DoD Government Purchase Card Programs. Unrestricted GAO
    reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
    DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.




                                        10 

 Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Purchase Card Joint Program Management Office
Under Secretary of Defense for Personnel and Readiness
  Director, DoD Education Activity
  Director, Department of Defense Dependents School – Pacific
  District Superintendent, Korea District

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          11 

Department of Defense Education Activity
Comments


                                    D E P A R T M E N T OF D E F E N S E
                                         EDUCATION ACTIVITY
                                      4040 NORTH FAIRFAX DRIVE
                                      ARLINGTON, VA 2 2 2 0 3 1635


                                                                                 AUG 3 1 2007

      M E M O R A N D U M FOR ASSISTANT INSPECTOR GENERAL FOR DEFENSE 

                                FINANCIAL AUDITING SERVICE 


      SUBJECT: Report on Government Purchase Card Controls at DoD Schools in Korea
               (Project No D2007-D000FJ-0038.002)

             We appreciate the opportunity to comment on the subject draft report We concur
      with the report in general; however, we do not concur with the basis and rationale for the
      report recommendation. Our comments on the report recommendation are below:

                     Report Recommendation:

                     The Director, DoD Education Activity, needs to amend DoD Education
                     Activity Directive 8000 1 and the DoD Education Activity's "Government
                     Purchase Card Users Manual" to require documenting that an acquisition
                     meets a legitimate Government need by including a purpose and
                     justification in the purchase card files

             The following regulations, guides, memorandums, and manuals are provided as
      references to support D o D E A ' s response that it is not a requirement to document
      purchase card files with a purpose and justification

                     (a) Federal Acquisition Regulation (FAR) Part 13 301(b)

                    (b) Department of Defense Government Charge Card Guidebook for
      Establishing and Managing Purchase, Travel, and Fuel Card Programs, Sections entitled
      "Purchasing" and "Management Controls "

                     (c) DoD Deputy Chief Financial Office ( O U S D ( C ) and Defense
      Procurement and Acquisition Policy (OUSD{AT&L)) memorandum dated Dec 19, 2005,
      entitled "Internal Controls for the Purchase Card Program."

                  (d) Department of Defense Financial Management Regulation (DoDFMR)
      Volume 10, Chapter 10, paragraph 100208, subparagraphs 100306D, 100307I, and
      Annex 1 and 2

                     (e) DoDEA Directive 8000.1 and the DoDEA Government Purchase Card
      Users Manual




                                                     13 

       The DoDEA Government Purchase Card Program is in compliance with the
Agency procedures as established by the Department of Defense Government Charge
Card Guidebook for Establishing and Managing Purchase, Travel, and Fuel Card
Programs, the Department of Defense Financial Management Regulation, and the OSD
guidance on Internal Controls for the Purchase Card Program as authorized by FAR Part
13.301(b).

       In an effort to further address your recommendation, DoDEA will contact the
Department of Defense Government Purchase Card Program Management Office to
discuss purpose and justification documentation for each purchase and to verify that
DoDEA is compliant with current Government Purchase Card regulations and guidelines

       My point of contact on this matter is Mr D Sibley, Chief, Compliance and
Assistance, who may be contacted by email: d. siblevi@hq.dodea.edu or by telephone at
(703) 588-3244




                                          J o s e p h D Tafoya
                                            Director




                                          2




                                              14
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
James L. Kornides
John K. Issel
Terry D. Holdren
Walter J. Carney
Peter G. Bliley
Erin S. Hart
Karen M. Bennett
